IN THE SUPREME COURT OF THE UNITED STATES

FRANCISCO VILLA,
Petitioner,

Vv.

UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

Certificate of Service

I, Kristi A. Hughes, appointed to represent the petitioner under the Criminal Justice Act,
certify that on January 8, 2021, one copy of the Petition for a Writ of Certiorari, the Appendix,
and a Motion to Proceed In Forma Pauperis in the above-captioned case were served by email
to respondent's counsel, addressed as follows:

Jeffrey B. Wall, Acting Solicitor General of the United States
supremecourtbriefs@USDOJ.gov

Respectfully submitted,

January 8, 2021

   

Cakdiff, CA 9208
Telephone: (858) 215-3520
Counsel for Petitioner
